U.S. PATENT AND
TRADEMARK OFFICE
Rapid Rise in the Request
for Continued Examination
Backlog Reveals Challenges
in Timely Issuance of
Patents

FINAL REPORT NO. OIG-14-024-A
JUNE 30, 2014


U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation


FOR PUBLIC RELEASE
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, D.C. 20230




June 30, 2014

MEMORANDUM FOR:              Michelle K. Lee
                             Deputy Under Secretary of Commerce for Intellectual Property
                             and Deputy Director of the U.S. Patent and Trademark Office


FROM:                        AnnC.EilersJ~              d £L
                             Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                   Rapid Rise in the Request for Continued Examination Backlog Reveals
                             Challenges in Timely Issuance of Patents
                             Final Report No. OIG-14-024-A

We are providing our final report for our review of the increase of the Request for Continued
Examination (RCE) backlog and pendency. This audit was conducted to (I) assess why there has
been an increase in average RCE pendency and the RCE backlog and (2) assess USPTO's efforts
to monitor and address the RCE backlog/pendency and review specific programs intended to
resolve issues during the initial processing of patents.

We identified four areas of concern:
    I. 	 Structural and examiner-specific issues have increased the number of RCEs that USPTO
         needs to act upon.
   2. 	 The inclusion of new information from examiners is an ongoing concern for applicants.
   3. 	 USPTO was slow to act on rapid RCE growth and will face challenges making future
        adjustments.
   4. 	 Some USPTO initiatives that could reduce RCEs have low participation rates and a
        negligible effect on the RCE backlog.

In response to our draft report, the bureau agreed with all of our recommendations and noted
that USPTO had begun to make progress on reducing the pendency and backlog of RCEs.
USPTO submitted technical comments to the draft report. Where appropriate, we made
changes to the final report based on these comments and suggestions.

USPTO's final formal response is included in appendix D of the report. The final report will be
posted on the OIG's website pursuant to section SM of the Inspector General Act as of 1978,
as amended. In accordance with Department Administrative Order 213-3, within 60 days of the
date of this memorandum please provide us with an action plan that responds to all of the
report's recommendations.
We thank USPTO personnel for the courtesies shown to us during this review. Please direct
any questions about the report to Carol Rice, Division Director, at (202) 482-6020 or Melanie
Caesar Danberg, Supervisor Program Analyst, at (202) 482-2710.

Attachment

cc: 	   Margaret A Focarino, Commissioner for Patents, USPTO
        Anthony P. Scardino, Chief Financial Officer, USPTO
        Welton Lloyd, Audit Liaison, USPTO
                                              Report In Brief                                        J U NE 3 0 , 2 0 1 4



Background                              U.S. PATENT AND TRADEMARK OFFICE
As the sole authority for issuing
patents in the United States, the       Rapid Rise in the Request for Continued Examination Backlog
U.S. Patent and Trademark Office        Reveals Challenges in Timely Issuance of Patents
(USPTO) establishes policies and
                                        OIG-14-024-A
metrics to ensure the timely re-
view of patents to protect new
                                        WHAT WE FOUND
investments and ideas, while fos-
tering innovation.                      Our audit identified several factors that have contributed to the recent increase in the
                                        RCE backlog at USPTO. Specific findings include:
Since fiscal year (FY) 2010,            1. 	Structural and examiner-specific issues have increased the number of RCEs that USPTO
USPTO has made progress in
                                            needs to act upon:
reducing the amount of time that
                                            • There are more rejected applications, and applicants are more willing to pursue an
an applicant waits to have a new
patent application reviewed. Dur-
                                               RCE after a final rejection than in the past.
ing that time, however, there was           • Applications reviewed by lower-grade examiners are more likely to lead to RCEs.
a concurrent decline in the                 • Rates of RCE filing vary by office.
USPTO’s performance in issuing          2. 	The inclusion of new information from examiners is an ongoing concern for applicants:
timely determinations on another            • Although examiners are including new information in final rejections, they only
type of filing in an application, the          introduced new prior art in response to amended claims, as allowed by the patent
Request for Continued Examina-                 process.
tion (RCE). RCEs are patent ap-             • 	USPTO’s quality assurance checks do not target some applications where new
plications resubmitted for consid-             prior art is most likely being introduced in final rejections.
eration after an examiner has           3. 	USPTO was slow to act on rapid RCE growth, and will face challenges making future
previously closed the review,               adjustments:
such as by making a second and
                                            • Policies incentivized examiners to focus on new applications rather than RCEs.
final rejection of the inventor’s
                                            • USPTO was slow to implement changes to curb RCE backlog growth and risks
claims.
                                               remain.
Why We Did This Review                  4. 	Some USPTO incentives that could reduce RCEs have low applicant participation rates and
                                            a negligible effect of the RCE backlog:
As USPTO put incentives in place            • Low applicant participation dampens the potential benefit of initiatives.
in FY 2010 to encourage the re-             • Once initiated, USPTO’s outreach has been vigorous, but engaging stakeholders
view of new patent applications,               requires a sustained effort.
the RCE backlog increased from
17,700 in October 2009 to               WHAT WE RECOMMEND
111,300 in March 2013. This
                                        We recommend that the Under Secretary of Commerce for Intellectual Property and
backlog in processing RCEs delays
intellectual property protection
                                        Director of the United States Patent and Trademark Office:
to some patent holders. It also         1. 	Mitigate the impact of RCE structural issues and examiner-specific issues and take
affects all patent applicants with          corrective action where necessary by (a) researching the reasons for the variance in
rejected applications, since the            after-final amendment approval rates and the decline in after-final amendment filings;
RCE backlog made it more diffi-             (b) assessing why applications handled by lower- and higher-grade examiners have
cult for applicants to determine            different RCE filing rates; and (c) assessing the reasons for variance among art units,
which appeal option to pursue.              identifying best practices that promote efficiency, and then developing strategies to
USPTO’s worsening performance               minimize patent term adjustment.
also affects industry competitors,      2. 	Determine whether a stratified sample of patent applications targeting risk areas
since by law USPTO must provide             would enhance quality assurance tests and the overall determination of patent
a patent term adjustment for an             examiner quality.
issued patent when it takes the
agency more than four months to         3. 	Establish a risk management plan that ensures timely, situation-specific analysis and
issue an action subject to limita-          solutions are documented and implemented to minimize patent-term adjustments
tions.                                      when rebalancing is needed to meet statutory requirements and public expectations
                                            for prompt processing.
                                        4. 	Develop ways to increase participation in the compact prosecution initiatives.
  U.S. DEPARTMENT OF COMMERCE                                                                                            OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Objectives, Findings, and Recommendations .............................................................................................4
 
    I.	  Structural and Examiner-specific Issues Have Increased the Number of RCEs That 

         USPTO Needs to Act Upon ..............................................................................................................5
 
       A.	  There are more rejected applications, and applicants are more willing to pursue an 

            RCE after a final rejection than in the past ................................................................................5
 
       B.	  Applications reviewed by lower-grade examiners are more likely to lead to RCEs........7
 
       C.	  Rates of RCE filing vary by office .................................................................................................8
 
    II.	  The Inclusion of New Information from Examiners Is an Ongoing Concern for 

          Applicants ...............................................................................................................................................9
 
       A.	  Examiners are including new information in final rejections in response to amended 

            application claims .............................................................................................................................9
 
       B.	  USPTO’s quality assurance checks do not target some applications where new prior 

            art is most likely being introduced in final rejections ........................................................... 10
 
    III.	  USPTO Was Slow to Act on Rapid RCE Growth and Will Face Challenges Making 

           Future Adjustments........................................................................................................................... 11
 
       A.	  Policies incentivized examiners to focus on new applications rather than RCEs .......... 11
 
       B.	  USPTO was slow to implement changes to curb RCE backlog growth and 

            risks remain.................................................................................................................................... 13
 
    IV.  Some USPTO Initiatives That Could Reduce RCEs Have Low Applicant Participation 

         Rates and a Negligible Effect on the RCE Backlog ..................................................................... 17
 
       A.	  Low applicant participation dampens the potential benefit of initiatives ......................... 17
 
       B.	  Once initiated, USPTO’s outreach has been vigorous, but engaging stakeholders 

            requires a sustained effort .......................................................................................................... 19
 
    Recommendations..................................................................................................................................... 21
 
Summary of Agency Response and OIG Comments............................................................................. 22
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 23
 
Appendix B: Calculating Application Approval Rates ............................................................................ 25
 
Appendix C: Glossary of Terminology ..................................................................................................... 26
 
Appendix D: Agency Response .................................................................................................................. 28
 


                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934 





                                                                                                                           FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Introduction
As the sole authority for issuing patents, the United States Patent and Trademark Office
(USPTO) establishes policies and metrics to ensure the timely review of patents to protect new
investments and ideas while fostering innovation. Although USPTO made progress in reducing
the time an applicant waits to have a new patent application reviewed (table 1) since FY 2010,
there was a concurrent decline in the agency’s performance in issuing timely determinations on
another type of filing in an application, the Request for Continued Examination (RCE). Prior to
FY 2010, applicants usually received RCE preliminary determinations within two months.

  Table 1. Average Waiting Time for a Preliminary Determination, FY 2009–2013
           Fiscal Year            New Applications (Months)             RCE (Months)
                2009                         25.8                             2.0
                2010                         25.7                             2.4
                2011                         28.0                             4.0
                2012                         21.9                             5.9
                2013                         18.2                             7.8
Source: USPTO

RCEs are patent applications resubmitted for consideration after an examiner has previously
closed the review, such as by making a second and final rejection of the inventor’s claims, as
shown in figure 1. Although there are some exceptions to the process shown in this figure, we
found that in the past 5 years around 90% of RCEs are filed as responses to final rejections.
                         Figure 1. Patent Application Approval Process




Source: OIG, based on USPTO documents


FINAL REPORT NO. OIG-14-024-A                                                                    1
  U.S. DEPARTMENT OF COMMERCE                                                           OFFICE OF INSPECTOR GENERAL

The increase in RCE processing times over
the past five years most immediately affects                        Figure 2. Percent of Approved
applicants who filed RCEs. As shown in figure                      Applications, Based on when First
2, usually between 20 percent and 30 percent                           Reviewed a, with an RCE
of patent applications each year went through                                CY 2004–2012
the RCE process before they were approved.                        2012
This percentage decreased in calendar year                        2011
(CY) 2012 in part because there were fewer                        2010
RCEs reviewed. As noted by USPTO, “The                            2009
longer it takes to review a patent application,                   2008
                                                                  2007
the longer it takes for the benefit of the
                                                                  2006
(intellectual property) IP protection to
                                                                  2005
accrue.”1 Delays in processing RCEs thus                          2004
delay IP protection to some patent holders.
                                                                         0%       10%     20%       30%      40%
Increased delays in processing RCEs also                       Source: OIG Analysis of USPTO data
                                                               a
affect all applicants with rejected applications.                USPTO refers to the preliminary determination as the
Given that applicants can pursue different                     First Office Action.
options if they would like USPTO to reconsider their application, an unexpected increase in the
RCE backlog starting in FY 2010 made it more difficult for applicants to determine which option
would be more advantageous.2

A worsening in USPTO’s performance in issuing timely RCE determinations also affects industry
competitors. By law,3 USPTO must provide a patent term adjustment for an issued patent when
it takes USPTO more than 4 months to issue an action, such as a preliminary determination,
following the submission of an RCE. A patent term adjustment means that USPTO is legally
required to extend the 20-year patent term because of USPTO delays, subject to limitations.
USPTO is also required to provide a patent term adjustment to issued patents if it fails to
provide a preliminary decision on new applications within 14 months, respond to the filing of an
appeal within 4 months, respond to a reply under section 132 within 4 months4 (such as
responses after non-final rejections), and issue a patent within 4 months of the payment of the
issue fee. In addition to these statutory requirements, USPTO provides an overall guarantee of
3-year application pendency, subject to limitations.5 The extension of the patent term affords
the patentees additional time to have exclusive rights over their patents, but blocks
competitors from utilizing the technology without a license. Although ensuring IP rights helps
foster innovation, USPTO tries to avoid having to provide patent term adjustments. As noted
by the World Intellectual Protection Organization (WIPO), patent systems must both foster
                                                            
1
   USPTO FY 2014 President’s Budget Submission to Congress. 

2
   There are different options available to applicants who would like USPTO to reconsider a rejected application. 

For example, an applicant can appeal the examiner’s decision to the Patent Trial and Appeal Board. Furthermore, 

an applicant could file a continuation application. A continuation-in-part application repeats a substantial portion of 

the original application and adds additional matter. An applicant could also file a divisional application for an 

independent and distinct invention carved from the original application.

3
   35 U.S.C. §154(b)(1). 

4
   35 U.S.C. §132.

5
  For example, delays by USPTO in examining an application after an RCE has been filed do not result in patent 

term adjustments under the 3-year pendency provision.



2                                                                                        FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                                               OFFICE OF INSPECTOR GENERAL

                                                                                                 innovation and remain consistent with fair
 Figure 3. Increase in the RCE Backlog,                                                          market rules. Limitations on the duration of
      October 2009–October 2013                                                                  patent right duration are cited by WIPO as a
                                                                                                 means of achieving this balance.6
 120,000

 100,000                                             In addition to these concerns, the increase in
                                                     RCE pendency and the RCE backlog highlights
   80,000                                            the challenges USPTO encountered because of
                                                     its decision to prioritize the review of new
   60,000
                                                     applications. As USPTO put incentives in place
   40,000                                            in FY 2010 to encourage the review of new
                                                     applications, the RCE backlog increased from
   20,000                                            17,700 in October 2009 to 111,300 in March
                                                     2013 (see figure 3). Prior to FY 2010, USPTO
         0
                                                     had historically not had a large RCE backlog.
                Oct‐09

                         Apr‐10

                                  Oct‐10

                                           Apr‐11

                                                    Oct‐11

                                                             Apr‐12

                                                                      Oct‐12

                                                                               Apr‐13

                                                                                        Oct‐13
                                                     When we spoke with USPTO staff, several
                                                     individuals employed the analogy of “squeezing
Source: USPTO                                        the balloon” to illustrate that examiners
                                                     focused their attention on new applications at
                                                     the expense of RCEs. USPTO implemented
  new policies to incentivize examiners to review RCEs in April 2013. The RCE backlog
  decreased to 84,500 in October 2013 (see figure 4), but it is too early to determine the impact
  on the new application backlog. The rapid rise in the RCE backlog in recent years can in part be
  attributed to an imbalance in incentives given to examiners to review new versus refiled
  applications. Analyzing the rapid increase in the RCE backlog is thus informative in what it
  reveals about the risks and vulnerabilities in USPTO’s ability to issue timely decisions on all
  types of patent applications.


  




                                                             
 6
  WIPO. Competition and Patents [online]. www.wipo.int/patent-law/en/developments/competition.html (accessed
 February 14, 2014).


 FINAL REPORT NO. OIG-14-024-A                                                                                                                  3
  U.S. DEPARTMENT OF COMMERCE                                                                      OFFICE OF INSPECTOR GENERAL


Objectives, Findings, and Recommendations
Our audit focused on two objectives: (1) assess why there has been an increase in average RCE
pendency and the RCE backlog and (2) assess USPTO’s efforts to monitor and address the RCE
backlog/pendency and review specific programs intended to resolve issues during the initial
processing7 of the patent applications.

To answer these objectives, we employed a mix of quantitative and qualitative methodologies.
Our quantitative analysis involved collecting data on all patent applications filed between FY
2004 and FY 2013. We identified trends in the applicants’ decisions to file RCEs and tested
whether certain factors and events affected the likelihood that a new application would lead to
an RCE. We also reviewed a sample of 50 patent applications to identify whether examiners
inappropriately introduced new information at the final stages of the patent review. In addition,
we also interviewed a selection of supervisory patent examiners, met with USPTO
management, and reviewed USPTO documentation and analysis (see Appendix A for our
methodology). In December 2012, USPTO solicited feedback from the public about the RCE
practice. Our research focused on concerns raised by the public and the Patent Public Advisory
Committee (PPAC) in response to USPTO’s RCE outreach efforts.

We were unable to research every frequently raised concern by the public and PPAC. For
example, some commenters complained that applicants and examiners want RCEs to be part of
the patent process, but we lacked a means to assess individuals’ motives. Additionally, we did
not have technical expertise to explore a concern raised by USPTO supervisors that the
applicants were not narrowing their claims throughout the patent process. We also could not
provide an overall assessment of the quality of an examiner’s patent application review.

Listed in table 2 below is a summary of our audit findings as they relate to each audit objective.

                                                               Table 2. Audit Findings

                           Objective                                                  What We Found

                                                                   Over the past 10 years there have been structural changes
                                                                   that increased the overall number of RCEs.
Assess why there has been an increase                              The inclusion of new information from examiners is an
in average RCE pendency and the RCE                                ongoing concern for applicants.
backlog                                                            The production credit and docket management policies
                                                                   USPTO put in place in FY 2010 increased the RCE backlog
                                                                   and pendency.
Assess USPTO’s efforts to monitor and                              USPTO was slow to act on rapid RCE growth and will face
address the RCE backlog/pendency and                               challenges making future adjustments.
review specific programs intended to                               Some USPTO initiatives that could reduce RCEs have low
resolve issues during the initial processing                       participation rates and a negligible effect on the RCE
of patent applications.                                            backlog.

                                                            
7
    USPTO refers to this as patent prosecution.


4                                                                                                   FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

    I.	       Structural and Examiner-specific Issues Have Increased the Number of
              RCEs That USPTO Needs to Act Upon
       A. There are more rejected applications, and applicants are more willing to pursue an RCE after a
          final rejection than in the past
                                                                 Figure 4. RCEs Filed by Year,

          Although USPTO increased the size of its                         CY 2004–2012 

          workforce, the volume of RCEs has outpaced             200,000
          this growth. To decrease the patent backlog,
          USPTO almost doubled the number of patent              150,000
          examiners in its workforce between FY 2006
          and FY 2012 from 4,200 to 8,000. Hiring
                                                                 100,000
          additional examiners reduced the patent
          backlog and doubled the number of preliminary
          determinations, or first actions, on new                50,000
          patents, but the number of RCEs filed by
          applicants tripled during that same period (see              0
          figure 4). To investigate reasons for this




                                                                               2004
                                                                               2005
                                                                               2006
                                                                               2007
                                                                               2008
                                                                               2009
                                                                               2010
                                                                               2011
                                                                               2012
          growth, we analyzed final rejection and after-
          final amendment8 rejection rates and found that         Source: OIG analysis of USPTO data
          both increased over time (see figure 5).

                                       Figure 5. Changes in Examiner and Applicant Behaviora




Source: OIG, based on USPTO documents

a
  See figure 1 for a full overview of the patent review process.

                                                            
8
 After-final amendments are amendments filed by applicants after the examiner has issued a final rejection. 

Examiners may choose to approve applications following after-final amendments; however, they are not required 

to provide new determinations in response to after-final amendments if the amendment is not entered by the 

examiner. Once a final rejection that is not premature has been entered in an application, there is no right to 

unrestricted further prosecution.



FINAL REPORT NO. OIG-14-024-A                                                                                       5
  U.S. DEPARTMENT OF COMMERCE                                                                                                  OFFICE OF INSPECTOR GENERAL


    Figure 6. Percent of Patents Approved                                              Figure 7. Filing and Approval Rates for
         by Examiners, CY 2004–2012                                                          After-Final Amendments,
                                                                                                    CY 2004–2012
     50%                                                                            80%

     40%
                                                                                    60%

     30%

                                                                                    40%
     20%

     10%                                                                            20%

       0%                                                                            0%
                2004
                        2005
                               2006
                                       2007
                                              2008
                                                      2009
                                                               2010
                                                                      2011
                                                                             2012




                                                                                            2004
                                                                                                   2005
                                                                                                          2006
                                                                                                                 2007
                                                                                                                        2008
                                                                                                                               2009
                                                                                                                                      2010
                                                                                                                                             2011
                                                                                                                                                    2012
                          % Approved Before RCE Filed                                              % Approved Following After Final
                                                                                                   Amendment
                                                                                                   % of Applications with After Final
                                                                                                   Amendments
            Source: OIG analysis of USPTO data                                             Source: OIG analysis of USPTO data


              The rate of patent applications approved by examiners early in the process (First Action
              or Final Determination) declined by 9 percentage points in the past decade (see figure
              6). Patents that were reviewed for the first time in calendar year (CY) 2004 were
              approved by examiners approximately 50 percent of the time; that number dipped to 30
              percent before eventually rebounding to nearly 40 percent for applications first
              reviewed in CY 2012.9 In addition, the percent of applications approved after an
              applicant filed an after-final amendment declined by 15 percentage points before
              gradually increasing (see figure 7). Over the same period, the percentage of applicants
              who filed amendments after receiving a final rejection fell from nearly 70 percent to 45
              percent (see figure 7). In other words, relative to CY 2004, examiners are now more
              likely to reject applications and amendments, and applicants are less likely to file after-
              final amendments that could resolve issues and negate the need for filing an RCE.

                                                                                                   Since, with a few exceptions, RCEs come
             There are more potential RCEs                                                         from applications that were rejected by
             because there are more rejected                                                       an examiner, rejecting more applications
             applications, and rejected applicants                                                 increases the pool of potential RCEs.
                                                                                                   Additionally, the decline in after-final
             are now more likely to file RCEs than                                                 amendment filing boosts the likelihood
             they were in 2004.                                                                    that a rejected application will ultimately
                                                                                                   become an RCE. In CY 2004, less than
                                                            
9
 Patents are not examined immediately after USPTO receives them. Therefore, all our graphs are based upon the
date patents are first reviewed by an examiner. If an examiner first reviewed an application in CY 2004 and later
made a final rejection in CY 2007, the rejection will appear in our CY 2004 tallies. In contrast, USPTO calculates
the percentage of approved patents based on when the final rejection or allowance was made. Thus, USPTO
would reflect the rejection in its CY 2007 tallies. See Appendix B for additional details.


6                                                                                                                               FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                   OFFICE OF INSPECTOR GENERAL

              half of rejected applications led to RCEs; by CY 2011, that number reached 60 percent.
              In other words, there are more potential RCEs because there are more rejected
              applications, and rejected applicants are now more likely to file RCEs than they were in
              CY 2004.

              After-final amendments are less expensive tools for reviewing rejected applications than
              RCEs (see table 3). Thus, USPTO should investigate the reasons for both the variance in
              after-final amendment approval rates and the precipitous decline in after-final
              amendment filings.

                                    Table 3. Comparison of RCE and After-Final Amendments

                                                               After-final Amendment                 RCE

                  Cost to the applicant                        $0                      $1,200 for large entitiesa

                  Number of hours examiners are                0–3 hours               ~ 10–30 hours, depending on
                  given to review the request                                          the technology

              Source: USPTO
              a
                78 Fed. Reg. 4212 (Jan. 18, 2013). The $1,200 fee is for the first RCE. Subsequent RCEs are $1,700.
              b
               Examiners receive 3 hours to review an after-final amendment when reviewing applications participating
              in the After-Final Consideration Pilot 2.0 program.

       B. Applications reviewed by lower-grade examiners are more likely to lead to RCEs

              In response to USPTO’s RCE outreach efforts,10 numerous public comments have
              argued that examiner quality is partly responsible for RCE growth. USPTO doubled its
              examiner workforce over the last decade, adding thousands of new examiners.
              Commenters suggested that applications reviewed by the less experienced examiners
              are more likely to result in RCEs. We lacked the expertise to test whether examiners
              erroneously rejected applications. However, we could test whether the applicant’s
              decision to file an RCE varied by the reviewing examiner’s seniority as measured by the
              examiner’s grade.11

              To test the effect of examiner grade on RCE filing, we analyzed the universe of all patent
              applications from FY 2006 to FY 2013 that received a final rejection. We then used a
              logistic model to regress examiner grade on the likelihood of RCE filing. To isolate the
              effect of the examiner’s grade from other factors that could influence an applicant’s
              decision to file an RCE, we also controlled for the examiner’s technology center12 and
              date of the first action.13


                                                            
10
   USPTO collected public feedback through various methods (see section IV for additional information.) 

11
   Grade is not perfectly correlated with level of experience.
  
12
   The patent examiner corps is organizationally divided into nine disciplines called Technology Centers.

13
   We use the month and year of first action. Since many of the applications in our analysis dataset do not have 

RCEs, it would not be appropriate to control for the date of RCE filing. 



FINAL REPORT NO. OIG-14-024-A                                                                                           7
  U.S. DEPARTMENT OF COMMERCE                                                                     OFFICE OF INSPECTOR GENERAL

                                                      We found that the applications reviewed by
                 Figure 8. RCE Filing Rates by
                                             a        lower-grade examiners are more likely to result
                  Grade of Patent Examiner
                                                      in RCEs than applications reviewed by higher-
               70%                                    grade examiners (see figure 8). Applications
               65%                                    reviewed by GS 9-11 examiners were nine
                                                      percentage points more likely to result in RCEs
               60%                                    than applications reviewed by GS 14-15
               55%                                    examiners.14 To make the regression
                                                      interpretable, figure 8 shows the effect of
               50%
                                                      changing examiner grade while holding the
                       GS 14-15 GS 12-13 GS 9-11
                a
                                                      technology center and date constant. There are
                  Estimates are for Technology Center
                                                      some limitations to our analysis because we
                2100 in January 2012.
                                                      cannot determine whether lower-grade
                Source: OIG analysis of USPTO data
                                                      examiners are performing lower-quality work
                                                      than higher-grade examiners. However, given
              the difference in RCE rates by examiner grade, USPTO should ensure that new
              examiners are following standard procedures for patent examination.

       C. Rates of RCE filing vary by office

             While performing our analysis, we also found that RCE filing rates varied by technology
             center and art unit, teams with specific expertise that are housed within technology
             centers. We limited our universe to patent applications that received a final rejection.
             We found that, since FY 2004, RCE filing rates by technology center ranged from less
             than 50 percent to 65 percent (see figure 9). USPTO refers to technology centers by
             the four digit codes depicted in figure 12. Within art units, there are even starker
                                                       contrasts: there are over 20 out of over 600 art
                Figure 9. RCE Filing Rates by          units with RCE filing rates exceeding 70 percent
             Technology Center since FY 2004           and over 50 art units with RCE filing rates of
                                                       under 40 percent. Additionally, in CY 2012 RCE
           1600                                        pendency varied by technology center from as
           1700                                        low as 107 days to more than 300 days. While
           2100                                        RCE pendency only became a significant
           2400                                        concern in the last few years, it has varied by
           2600                                        art unit and technology center since FY 2004.
           2800
                                                                            We are unable to assess whether these
           3600
                                                                            differences are caused by the complexity of the
           3700                                                             technology involved, a pattern of applicant
           4100                                                             behavior, or differences in examiner quality and
                     0%         20%         40%         60%    80%   100%   procedures. The disparities in RCE filing rates
              Source: OIG analysis of USPTO data                            suggest, at least, meaningful differences across
                                                                            art units; therefore, USPTO should assess
                                                            
14
   These results are statistically significant at p<.0001. To interpret the results of the logistic regression model, we
held all other variables at their mean values. We also found that applications worked by GS 12-13 examiners were
six percentage points more likely to result in RCEs than applications worked by GS 14-15 examiners.


8                                                                                                   FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

              reasons for variance among art units, identify best practices that promote efficiency, and
              then develop separate RCE pendency targets by art unit.

     II.	     The Inclusion of New Information from Examiners Is an Ongoing Concern
              for Applicants
       A. 	 Examiners are including new information in final rejections in response to amended application
            claims

              In response to USPTO outreach efforts initiated in late 2012, patent applicants
              complained that USPTO did not allow applicants the opportunity to respond to
              examiner concerns before rejecting patent applications. Applicants stated that patent
              examiners are providing references to new information, referred to as new prior art,15
              during final rejections. Once an examiner issues a final rejection, he or she is not
              required to consider any further amendments submitted by applicants. Unable to
              respond to the new prior art introduced in the final rejection, applicants claim that they
              file RCEs so that their applications will be considered again by examiners (see figure 10).

                                          Figure 10. Applicants’ Concerns about New Prior Art




Source: OIG, based on USPTO documents
See figure 1 for a full description of the patent review process.
 



                                                            
15
  The Manual of Patent Examining Procedure (MPEP) 707 and 37 C.F.R. § 1.104(a) state that when examining an
application, “the examiner … shall make a thorough investigation of the available prior art relating to the subject
matter of the claimed invention.” To be patentable, inventions must be “novel,” meaning the claimed invention
must be different from what has already been “patented, described in a printed publication, or in public use, on
sale, or otherwise available to the public” (referred to as “prior art”). 35 U.S.C. § 102; see 37 C.F.R. § 1.104(c)(2),
MPEP 707.


FINAL REPORT NO. OIG-14-024-A                                                                                             9
  U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

              When we discussed the applicants’ concern with a selection of 15 USPTO supervisory
              patent examiners drawn from different technology centers, we found that the
              supervisors expressed a different perception of the issue than the applicants. The
              supervisors commented that when new art is included in the final rejection, the decision
              to do so by an examiner is rarely incorrect. Specifically, they found that examiners
              include references to new prior art because applicants substantively amended their
              claims or because the amendments changed the scope of the claims.

              We determined that examiners only introduced new prior art in response to amended
              claims, as allowed by the patent process. Based on a random sample of 50 USPTO final
              rejections, applicants were correct that examiners introduced new prior art. However,
              examiners followed USPTO policy by only including new references in response to
              amended claims. The purpose of our review was to determine if USPTO examiners had
              provided new prior art to claims that were not amended by applicants. We found no
              instances where this was the case.

              Under current USPTO policy, as set forth in the Manual of Patent Examining Procedure
              (MPEP) 706.07(a), patent examiners are allowed to issue final rejections after an
              applicant responds to examiner comments and/or amends an application. However,
              examiners may only provide new prior art in a final rejection if an amendment
              necessitated citation of the new ground or if the new ground was cited in an
              information disclosure statement filed during the period. USPTO management also
              noted that examiners should not include references to new prior art to reject claims
              that were not substantively amended by the applicant. Although applicants may not
              prefer USPTO’s policies related to the introduction of new prior art during final
              rejections, we found that examiners complied with the rules.

       B. 	 USPTO’s quality assurance checks do not target some applications where new prior art is most
            likely being introduced in final rejections

              Given applicants’ concern about examiners introducing any new prior art during final
              rejections, we reviewed USPTO’s procedures to detect errors in the application of new
              prior art. USPTO’s Office of Patent Quality Assurance (OPQA) checks several thousand
              applications each year to determine whether examiners followed USPTO procedures
              when rejecting or approving patent applications. Of the over 9,000 final rejections
              USPTO reviewed between October 1, 2006 and December 2013, only 1.8 percent of
              final rejections had an examiner error related to inappropriate introduction of new
              prior art.16 OPQA reviews a statistical sample from all final rejections and approved
              patent applications, to test whether examiners applied the proper prior art.17 However,
              OPQA does not know whether applications included in its tests will eventually result in

                                                            
16
   The audit team could not verify the results of USPTO’s quality assurance tests. USPTO found that 1.8 percent of
the final rejections were incorrect because either (1) the examiner applied new prior art in response to claims that
had only been amended to address limitations or (2) the examiner applied new prior art in response to claims that
had not been amended.  
17
   OPQA also looks at a sample of preliminary determinations made by examiners, but those tests do not directly
apply to the concern of including new prior art during final rejections. 


10                                                                                    FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

              RCEs being filed by applicants because it stated that it tries to look at examiner
              determinations as soon as they are issued. RCEs could, therefore, be filed after OPQA
              performs its checks.

              Additionally, USPTO does not target its tests to look at the subpopulation of
              applications where examiners have prepared and attached a form PTO-892 to an action
              indicating that they are citing existing and/or new prior art in their final rejections.18
              Preparing this form is a risk indicator that an examiner may be introducing new prior art
              in his or her final rejection. By following its current quality assurance procedures,
              OPQA can produce a statistically robust estimate of how often examiners
              inappropriately introduce new prior art each year, but it is less likely to catch specific
              instances of examiners incorrectly providing new prior art. Thus, OPQA could
              determine whether a stratified sample of patent applications targeting applications with
              new prior art would enhance quality assurance tests and the overall determination of
              patent examiner quality.

    III.	     USPTO Was Slow to Act on Rapid RCE Growth and Will Face Challenges
              Making Future Adjustments
       A. Policies incentivized examiners to focus on new applications rather than RCEs

              Historically, USPTO management has utilized two tools to influence examiner output.
              The first tool, production credit, is the credit given to an examiner to perform specific
              actions (e.g., work on a new application or an RCE). USPTO incentivizes certain actions
              by assigning a larger production credit to the examiner. The second tool, docket
              management, controls the order that applications are processed by examiners.
              Examiners are evaluated by the amount of production credit they earn each year and
              their compliance with docketing rules. Examiners who exceed USPTO’s production
              credit targets are also eligible for bonuses. USPTO management negotiates changes to
              the credit and docketing systems with the patent examiners’ union (the Patent Office
              Professional Association, or POPA). Table 4 (next page) outlines recent changes to
              production credit and docketing policies that lead to RCE backlog growth.

              USPTO made these changes to production credit and docketing policies to encourage
              examiners to review new applications rather than RCEs. The production credit changes
              reduced the amount of credit an examiner received for reviewing an RCE, while the
              docket management changes removed strict time requirements for work on RCEs.

 



                                                            
18
   When an examiner prepares form PTO-892, “Notice of References Cited,” the examiner is listing existing or
new references he or she deems pertinent. See MPEP § 1302.12. In contrast, an examiner who does not cite new
prior art in his or her final rejection would not need to prepare form PTO-892 when he or she issues the final
determination. Thus, preparing the form PTO-892 with the final rejection is a strong indicator that the examiner is
likely including new prior art in the final rejection.


FINAL REPORT NO. OIG-14-024-A                                                                                    11
  U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL

          Table 4. FY 2010 Production and Docket Management Policy Changes

                                         Before Changes                       After Changes

       Production            Examiners received the same              Examiners receive more credit for reviewing
       Credit                production credit for reviewing          new applications than for reviewing RCEs.
                             new applications as RCEs.

       Docket                Examiners were expected respond          The 2-month requirement was lifted. USPTO
       Management            to an RCE within 2 months.               required examiners to review as few as 13
                                                                      RCEs each year.
      Source: USPTO

      The blue line in figure 11 shows the percent of RCE-related actions produced by
      examiners compared with other work from CY 2004 to CY 2013. The first red line
      identifies when USPTO placed RCEs on a new docket and examiners no longer needed
      to act on RCEs within 2 months. The second red line shows when examiners received
      reduced credit for reviewing RCEs and more credit for reviewing new applications.
      After these policies were put in place, examiners completed fewer RCE actions relative
      to all other actions and focused on new applications rather than RCEs.

      The RCE backlog grew from 14,000 in January 2010 to 112,000 in 2012 (see figure 3).
      When USPTO temporarily awarded examiners more production credit to review RCEs

                                Figure 11. Percent of RCE Actions vs. 

                              Other Actions, January 2004–October 2013 

       35%

       30%

       25%

       20%

       15%                                                                         After the FY 2010
                                                                                   agreement, examiners
       10%
                             Before the FY 2010 agreement,                         completed fewer RCEs
                             examiners increasingly completed                      compared with other
        5%
                             more RCE compared to other work.                      work.
        0%
             2004



                      2005



                                  2006



                                             2007



                                                     2008



                                                               2009



                                                                            2010



                                                                                       2011



                                                                                                 2012



                                                                                                           2013




      Source: OIG analysis of USPTO data




12                                                                                     FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

        in April 201319 (the third red line), the examiners acted on more RCEs relative to other
        patent actions.

        Figure 12 illustrates the increased wait time (in days) for preliminary decisions on RCEs
        since the FY 2010 production credit and docket management change.

        The average time an applicant waited to receive a preliminary decision on an RCE
        increased from 48 days to almost 210 days between January 2008 and January 2013. The
        orange horizontal line identifies the 4-month RCE response time required by law.20 If
        USPTO fails to respond within this time period, the patent term is extended, subject to
        limitations.21 As in figure 11, the third red line represents the April 2013 increase to
        production credit.

                         Figure 12: Average Waiting Time for a Preliminary
                       Decision on RCEs (in days), January 2004– October 2013

          300

          250

          200

          150

          100

           50

            0
                2004



                         2005



                                   2006



                                              2007



                                                       2008



                                                                  2009



                                                                            2010



                                                                                      2011



                                                                                                2012



         Source: OIG analysis of USPTO data                                                               2013

        Although USPTO successfully affected examiner behavior through production credit and
        docket management policies, it was less successful at deterring applicant demand for
        RCEs. USPTO stated that its FY 2010 policy changes were designed to “rebalance
        incentives both internally and externally to decrease rework,” but RCE filing rates have
        not declined. Additionally, USPTO subsidizes the cost of reviewing RCEs.22 When
        Congress granted USPTO across-the-board fee setting authority in 2011, USPTO

19
   In April 2013, USPTO announced a temporary policy, known as the fire sale, where examiners received as much
credit for completing RCEs as for new applications. The policy went into effect April 7, 2013, and ended on
October 1, 2013.
20
   The 4-month response requirement, established by 35 U.S.C. §154(b)(1), applies to every RCE and not just the
average RCE.
21
   If the applicant has engaged in delays, these delays are factored in to determine if there will be a patent term
adjustment. 
22
   USPTO recovers the cost for processing patent applications through its maintenance fees on issued patents.


FINAL REPORT NO. OIG-14-024-A                                                                                    13
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

        initially proposed setting the RCE fees at full cost recovery. The public and PPAC noted
        that the need to file an RCE was not due to the applicant, and thus USPTO decided not
        to set the RCE fee at the full cost-recovery level.

     B. USPTO was slow to implement changes to curb RCE backlog growth and risks remain

        Despite USPTO’s monitoring of the rapid RCE growth, USPTO did not make major
        changes to production credit and docketing policy until April 2013 and again in October
        2013. Internal documents show that USPTO was aware of negative public reaction to
        RCE growth as early as August 2010. USPTO management received periodic reports
        that cover a number of areas in patent operations, including reports to monitor the
        RCE pendency, inventory, and backlog, as well as reports on initiatives that could reduce
        RCEs during this period. However, the reports did not identify whether the backlog or
        pendency had reached a tipping point. This is because USPTO has not established
        strategic goals outlining what a manageable RCE inventory should consist of relative to
        the size of its examiner corps or thresholds for backlog or pendency fluctuations that
        would trigger management action. Additionally, USPTO management must factor in time
        to negotiate with the union to make changes to the credit and docketing policies as well
        as to implement these policy changes in the relevant information technology systems.

        USPTO officials have stated that they delayed taking action until March 2013 for several
        reasons. Management indicated that they wanted to establish a clear trend of RCE
        growth and RCE filing behavior by applicants. Additionally, management officials
        indicated that they wanted to be sure they understood the problem better, and thus
        they initiated their “RCE Outreach” efforts with stakeholders in late 2012. These
        uncertainties, coupled with a lack of established thresholds that would trigger automatic
        management action, led USPTO to react slowly to the increased growth in the RCE
        backlog and pendency.

        Once USPTO had established a clear trend of RCE growth and conducted outreach
        with stakeholders, policies were put in place in April 2013 (a short-term credit change
        known within USPTO as the “fire sale”) and October 2013 (a mix of credit and
        docketing policy changes referred to as the FY 2014 agreement) that incentivized
        examiners to work on RCEs again. The April 2013 policy reduced overall patent
        examiner production, and it is too soon to determine the impact of the FY 2014
        agreement.

        In April 2013, USPTO’s “fire sale” temporarily increased the production credit awarded
        to examiners for reviewing RCEs without decreasing credit awarded for other office
        actions or increasing examiners’ production targets (see table 5, next page).

 




14                                                                      FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

            Table 5. April 2013–September 2013 Production Credit Changes

                                              Examiners review both new applications and RCEs

                                                       FY 2013                           FY 2013
          Time Period
                                                      Quarter 1–2                       Quarter 3–4

          RCE Credit                                      1.75                               2.0

          New Application Credit                           2.0                               2.0

          Examiners’ Production Targets                   no change, but varies by technologya

        Source: OIG analysis of USPTO documents
        a
          Examiners’ expected production is dependent on the technology they examine and their grade. For
        example, a GS-12 examiner reviewing a business methods patent application in class 705, is expected to
        take 31.6 hours to receive 2 credits.

        By increasing the amount of credit given for completing RCEs without a corresponding
        decrease in credit for other work products or change in overall production targets,
        USPTO reduced the total productivity of its organization. Our analysis found a similar
        result from the FY 2010 credit system changes.23 As a result of the additional time given
        to review new applications and RCEs, examiners who worked continuously for a full
        year before and after the credit system change performed 5 percent fewer office actions
        the year after the policy took effect.

        Production credit and docketing policy changes that took effect under the FY 2014
        agreement require some examiners to only review RCEs rather than new applications.
        Examiners who only review RCEs will once again receive inflated credit (see table 6,
        next page) because they will receive more credit for reviewing RCEs without a
        corresponding decrease in credit for other work products or change in overall
        production targets. Additionally, all examiners will receive inflated credit for the fourth
        and subsequent RCEs they review in the first quarter and inflated credit for the fifth
        and subsequent RCEs they review in each remaining quarters of FY 2014 (see table 6,
        next page). These policy changes expire at the end of the fiscal year, on September 30,
        2014.




23
  In the FY 2010 agreement, examiners were given 3 additional hours to review each new application and RCE.
The amount of credit examiners received to review new applications remained unchanged, but examiners received
fewer credits for reviewing RCEs.


FINAL REPORT NO. OIG-14-024-A                                                                                    15
  U.S. DEPARTMENT OF COMMERCE                                                                             OFFICE OF INSPECTOR GENERAL

                              Table 6. FY 2014 Agreement Production Credit Changes
                                                     Examiners only                        Examiners review both
                                                      review RCEsa                        new applications and RCEs
                                                                                      FY 2014                    FY 2014
                Time Period                                    FY 2014
                                                                                      Quarter 1                 Quarter 2–4
                                                                                First 3 reviews = 1.75,    First 4 reviews = 1.75,
                RCE Credit                                       2.0
                                                                                        then 2.0                   then 2.0

                New Application
                                                         not applicable                  2.0                           2.0
                Credit

                Examiners’
                                                                         No change, but varies by type of technology
                Production
                Targets

              Source: OIG analysis of USPTO documents
              a
                Examiners with inventories of more than 60 unexamined RCEs during the first half of FY 2014 will only
              review RCEs. They received 2.0 credits for each RCE they reviewed because management directed them
              to review RCEs. During the second half of FY 2014, the threshold lowers from 60 unexamined RCEs to
              50 unexamined RCEs.

              The FY 2014 agreement will also have an unknown effect on USPTO’s other inventories
              (new applications, divisional applications, continuing applications, and appeals). It is
              generally accepted by USPTO management that the FY 2014 agreement will result in a
              reduction in the RCE backlog because some examiners will be devoted to reviewing
              RCEs. Specifically, these examiners will not look at any applications in the new
              application backlog. The FY 2014 agreement requires that USPTO begin negotiations
              with the examiners’ union in August 2014 to determine if the agreement is to be
              extended, amended, or terminated. If consensus is not reached, or if the FY 2014
              agreement is terminated, the credit and docket system will return to FY 2009 levels.24

              Creating policies to establish the appropriate mix of incentives to review RCEs and new
              applications has not been easy. We observed that in preparation for the FY 2014
              agreement USPTO performed a great deal of analysis and worked expediently with the
              patent examiners’ union. To prepare for upcoming negotiations required by the FY 2014
              agreement, USPTO must plan for the increased size of the examiner workforce since FY
              2010 in their patent forecasting models. Additionally, USPTO must contend with lags in
              data inherent in the patent process. For example, an applicant may wait several months
              before they file an RCE. Given these challenges, in the future there will be the risk of a
              potential loss of production efficiency and devaluation of work if repeated short-term
              agreements with the union are required to balance examiners’ incentives to review new
              applications versus RCEs.



                                                            
24
  The FY 2009 levels were the policies in place prior to the FY 2010 production and docket management policy
changes that incentivized the review of new rather than RCE applications (see figure 14).


16                                                                                                         FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

IV.	    Some USPTO Initiatives That Could Reduce RCEs Have Low Applicant
        Participation Rates and a Negligible Effect on the RCE Backlog
    A. Low applicant participation dampens the potential benefit of initiatives

        In addition to changes to the production credit and docket management system policies,
        USPTO has implemented several other initiatives that could reduce the number of RCEs
        (table 7): Quick Path Information Disclosure Statement (QPIDS), After Final
        Consideration Pilot 2.0 (AFCP 2.0), and First Action Interview Pilot (FAIP). Applicants
        must opt-in to participate in each program.

        Although USPTO identified QPIDS, AFCP 2.0, and FAIP as initiatives that could reduce
        the RCE backlog, the initiatives’ original goals were what USPTO calls compact
        prosecution. The focus of compact prosecution is to build quality determinations upfront
        in the process, thereby reducing the number of examiner reviews. By focusing on quality
        and resolving issues earlier in the patent review process, USPTO would expect fewer
        RCEs. We found that QPIDS, AFCP 2.0, and FAIP initiatives have low applicant
        participation rates (see table 8) and thus currently have a negligible effect on the RCE
        backlog. USPTO also recognizes that underutilization is a problem for the AFCP 2.0
        program and communicated this in research they prepared for RCE Outreach events.

                 Table 7. Other Initiatives That Could Reduce RCE Backlog

          Initiative                                Description                             Initiated

       Quick Path        QPIDS is a pilot program to address a niche issue. QPIDS           May
       Information       allows applicants to disclose prior art that may be relevant to    2012
       Disclosure        the patent application to avoid an additional RCE review. To
       Statement         participate in QPIDS, applicants must pay a fee and file several
       (QPIDS)           forms, including a transmittal form that designates the request
                         as a QPIDS submission.

       After Final       AFCP 2.0 is a pilot program that is focused on obtaining           May
       Consideration     agreement through after-final amendments. Applicants who opt       2013a
       Pilot 2.0         into the program meet with the examiner with the hope that
       (AFCP 2.0)        all disagreements between the examiner and applicant can be
                         resolved through the after-final amendment process rather
                         than RCEs. To opt into AFCP 2.0, applicants must file a request
                         for consideration under the pilot program and amend at least
                         one independent claim that does not broaden the scope of the
                         claim.

       First Action      FAIP is a pilot program that focuses on increasing agreement       October
       Interview         early in the process by allowing the applicant and examiner to     2009
       Pilot (FAIP)      meet before the first action. To participate, an applicant must
                         file a request at least one day before the first office action.

    Source: USPTO

     a
       The original AFCP pilot program started in March 2012.



FINAL REPORT NO. OIG-14-024-A                                                                           17
  U.S. DEPARTMENT OF COMMERCE                                                                   OFFICE OF INSPECTOR GENERAL

                               Table 8. Low Applicant Participation in Some Initiatives

                Initiative                           Number of Applicants      Time Period Tracked

                AFCP 2.0                             16,598                    May 2013–November 2013a

                FAIP                                 4,169                     October 2005–November 2013

                QPIDS                                2,480                     May 2012–November 2013

                Total                                23,247b

              Source: USPTO
              a
                USPTO did not track participation in the original AFCP pilot program that started in March 2012.
              b
                There were 590,070 patent applications in the backlog in November 2013. Twenty-three thousand
              applications equal 3.9 percent of the November new-application backlog. This backlog figure includes
              utility, plant, and reissue patent applications and does not include design applications. Design applications
              are not eligible for RCE.

                            Figure 13. Likelihood                           Although these programs have low applicant
                                of RCE Filing 	                             participation rates, we found that the FAIP
                  70%                                                       and AFCP 2.0 programs reduce the likelihood
                                                                            that an application will result in an RCE.25 To
                                  62%	                                      illustrate the impact of programs, figure 13
                                                                            shows the differences in the percent chance
                  60%
                                                                            that an applicant would file an RCE after
                                                    55%
                                                                            participating in the FAIP and AFCP 2.0
                                                                            programs compared with applications that did
                  50%                                                       not participate in the program.26 Holding
                                                                            other variables constant, participating in the
                                                               43%          AFCP 2.0 program lowers the likelihood that
                                                                            an applicant will file an RCE by almost 20
                  40%
                                                                            percentage points.27

                                                                            Participation in the FAIP program lowered
                  30%                                                       the likelihood an applicant would file an RCE
                                 No                 FAIP       AFCP         by seven percentage points. To test whether
                              Program                                       participation in these programs affected the
                                                                            likelihood of an RCE filing, we employed a
                 Source: OIG analysis of USPTO data
                                                                            logistic regression model and controlled for
                                                            
25
   We could not perform a similar test on QPIDS participants because the comparison group of “no program” is
not relevant. Participants in the QPIDS program would need to go through the RCE review process if they did not
participate in the QPIDS program.
26
   To interpret the results of the model, the baseline for the chart is composed of applications reviewed in
Technology Center 2100 by a GS-12 examiner in January 2012.
27
   These results are preliminary—most of the cases participating in AFCP 2.0 are not finalized patent applications.
Restricting the universe to patents from the same time frame as the AFCP program participants shows similar
results. Still, conducting an identical study of program participation effects in one year will provide more reliable
results.


18                                                                                               FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

              technology and date as we did in models described in section I. We also controlled for
              the grade of the examiner.

              These findings echo themes that arose in our interviews28 with 15 supervisory patent
              examiners from different Technology Centers:29

                      	 Seven of the supervisors we interviewed thought that the AFCP 2.0 is a good
                         program because it allows examiners time to interview applicants and resolve
                         issues that could lead to an approved patent.

                      	 Two supervisors were not very enthusiastic about AFCP 2.0 because they
                         thought applicants were not sufficiently narrowing their claims and because
                         examiners didn’t think they had enough time to review after-final amendments. If
                         an examiner does not think he/she has enough time to consider the new
                         information presented in the after-final amendment, he/she is not required to
                         issue a new determination.

                      Thus, although some of these initiatives appear to reduce the likelihood an applicant
                      would later file an RCE, USPTO supervisors also identified limitations within the
                      programs.

       B.	 Once initiated, USPTO’s outreach has been vigorous, but engaging stakeholders requires a
           sustained effort

              USPTO initiated a concerted RCE Outreach effort in December 2012 and early 2013
              after 3 years of steady increases in the RCE backlog. As part of the RCE Outreach
              initiative, USPTO used various means, such as roundtables, town halls, blog postings, and
              mass emails, to let stakeholders know about the QPIDS, AFCP 2.0, and FAIP programs.
              USPTO announced the availability of various resources and used Federal Register notices
              to solicit feedback on RCE programs and issues. USPTO management noted that
              feedback received from these outreach efforts helped them design new production
              credit and docket management policies implemented in FY 2013 and FY 2014.

              Externally, applicants have criticized USPTO’s outreach efforts. Feedback from an
              August 2013 Patent Public Advisory Committee (PPAC) meeting included a comment
              that Federal Register notices may not be the best way to advertise a federal program to
              the public. Although USPTO has done more than rely on the Federal Register to
              communicate with the public (see figure 14), the comment highlights the challenges
              USPTO faces in engaging stakeholders. The Government Accountability Office states
              that internal controls should include effective communications internally and in addition,
              “management should ensure there are adequate means of communicating with and
              obtaining information from external stakeholders that may have a significant impact on


                                                            
28
     AFCP 2.0 did not arise as a topic in six of our interviews.

29
     This is not a statistically representative sample of the total population.
 


FINAL REPORT NO. OIG-14-024-A                                                                               19
  U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL

              the agency achieving its goals.” 30 USPTO has made a concerted effort to engage
              stakeholders on the RCE issue since December 2012. Continuing to engage all
              stakeholders on this issue will need to be a sustained effort.

 




                                              Figure 14. Components of RCE Outreach



                                                                  Mass
                                                                 Emails

                                              Twitter and
                                                                           Roadshows
                                               Facebook


                                                                RCE
                                                               Outreach
                                                 USPTO                      PPAC
                                                 Website                   Meetings

                                                                Federal
                                                                Register
                                                                Notices


                                        Source: USPTO




                                                            
30
 U.S. General Accountability Office, November 1999. Standard for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1, Washington, DC: GAO.


20                                                                                     FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director
of the United States Patent and Trademark Office:

    1. Mitigate the impact of RCE structural issues and examiner-specific issues and take 

    corrective action where necessary by:

        a. 	researching the reasons for the variance in after-final amendment approval rates and
            the precipitous decline in after-final amendment filings;
        b. 	assessing why applications handled by lower- and higher-grade examiners have
            different RCE filing rates; and
        c. 	assessing the reasons for variance among art units, identifying best practices that
            promote efficiency, and then developing strategies to minimize patent term
            adjustment.

    2. Determine whether a stratified sample of patent applications targeting risk areas, such as
    applications with new prior art applied in a final rejection, would enhance quality assurance
    tests and the overall determination of patent examiner quality.

    3. Establish a risk management plan that ensures timely, situation-specific analysis and
    solutions are documented and implemented to minimize patent-term adjustments when
    rebalancing is needed to meet statutory requirements and public expectations for prompt
    processing.

    4. Develop ways to increase participation in the compact prosecution initiatives, especially
    AFCP 2.0, and continue efforts to engage all stakeholders.

 




FINAL REPORT NO. OIG-14-024-A                                                                      21
  U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
In response to our draft report, the Deputy Director of the Unites States Patent and
Trademark Office agreed with all of our recommendations and noted that the bureau had
begun to make progress on reducing the pendency and backlog of RCEs. USPTO submitted
technical comments to the draft report. We made changes to the final report based on these
comments and suggestions.

We look forward to receiving USPTO’s action plan within 60 calendar days of the date of this
report.

 




22                                                                    FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objective of our audit was to determine the reasons why there was a recent increase in the
RCE backlog and RCE pendency as well as to review USPTO’s monitoring and management
response to the increase. As part of reviewing USPTO management’s response, we examined
USPTO initiatives intended to resolve issues during the initial review of a patent application.

To accomplish our objectives we:

    	 Reviewed comments submitted by the public to USPTO concerning the agency’s RCE
       practice.

    	 Reviewed patent laws and regulations and the Manual of Patent Examining Procedure to
       determine the policies and procedures applicable to examiner actions during patent
       processing.

    	 Collected data on all patent application actions and patents between January 2004 and
       September 2013, including approval, rejections, and RCE filings. We also tested the
       reliability of the data through electronic testing and matched the electronic records with
       a sample of 50 patent applications.

    	 Analyzed the patent application data to calculate approval rates, rejection rates, RCE
       filing rates, amendment filing rates, and amendment allowance rates over time and ran
       various regressions on the patent application action data. As part of this analysis, we
       assessed the impact of USPTO policy changes on RCEs.

    	 Conducted a random sample of 50 USPTO final rejections leading to RCEs being filed,
       to determine if USPTO introduced new prior art in response to amended claims in
       compliance with regulations. We did not project the results to the population due to
       the sample size. We also met with the OPQA to gain an understanding of what quality
       reviews it conducts during the patent application process.

    	 Interviewed and requested documentation from USPTO management and union officials
       to create a timeline of USPTO actions that may have affected RCE inventory and
       pendency.

    	 Interviewed 15 supervisory patent examiners drawn from different Technology Centers
       with high, medium, and low amounts of RCE applications to determine if there are
       common themes or significant issues related to the RCE practice.

    Further, we gained an understanding of the internal controls related to the supervision of
    patent examiner determinations and interviewed 15 patent examiner supervisors. However,
    we did not perform specific tests on the internal controls given the context of our



FINAL REPORT NO. OIG-14-024-A                                                                    23
  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

     objectives. During the audit, we identified no incident of fraud, illegal acts, violations, or
     abuse. For our quantitative analysis, we relied on computer-generated data. We found the
     data sufficiently reliable for assessing trends and creating statistical models.

     We conducted our audit fieldwork at USPTO headquarters in Alexandria, Virginia, between
     June 2013 and January 2014, and we conducted this audit in accordance with generally
     accepted government auditing standards. We complied with those standards that require
     that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
     reasonable basis for our findings and conclusions, based on our audit objectives. We believe
     that the evidence obtained provides a reasonable basis for our findings and conclusions
     based on our audit objectives. We performed our work under the authority of the
     Inspector General Act of 1978, as amended, and Department Organizational Order 10-13,
     dated August 31, 2006, as amended.

 




24                                                                         FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                      OFFICE OF INSPECTOR GENERAL


Appendix B: Calculating Application Approval
Rates
USPTO calculates the monthly approval rates31 for patent applications by dividing the number of
applications approved in the preceding month by the total number of applications “disposed of”
in that month. An application is disposed of when it is either approved, abandoned by the
applicant, or when the applicant files an RCE. In this report, we calculated the approval rates for
patent applications differently than USPTO because we had different analytical needs for our
statistical models. First, we grouped patent applications by the year they were first reviewed so
that we could control for this time period in our models. If an applicant received a preliminary
determination (first action) in FY 2004 and a final rejection in FY 2007, our analysis would
record the rejection in FY 2004. In contrast, USPTO would record this rejection in FY 2007.
Additionally, our analysis looked at the rate at which USPTO approved or allowed patent
applications prior to the filing of the RCE. Thus the denominator in our approval rates is a
subset of applications included in USPTO’s approval rate calculations. To avoid confusion on
this issue, the two graphs in figure B-1 show the difference between how USPTO calculates
approval rates and how we calculated approval rates in this report. Both graphs come from the
same set of data.

                              Figure B-1. Comparison of OIG and USPTO Methods for 

                                     Calculating Approval Rates, FY 2004–2012 

     80%                                                                      80%
     70%                                                                      70%
     60%                                                                      60%
     50%                                                                      50%
     40%                                                                      40%
     30%                                                                      30%
     20%                                                                      20%
     10%                                                                      10%
      0%                                                                       0%
               2004
                      2005
                             2006
                                    2007
                                           2008
                                                  2009
                                                         2010
                                                                2011
                                                                       2012




                                                                                    2004
                                                                                           2005
                                                                                                  2006
                                                                                                         2007
                                                                                                                2008
                                                                                                                       2009
                                                                                                                              2010
                                                                                                                                     2011
                                                                                                                                            2012




                          USPTO Allowance Rate                                               % Allowed Before Filing RCE
                                                                                                                                                    
Note: The chart on the left shows how USPTO measures the patent approval rate. The chart on the right shows
how OIG measured the patent approval rate.
Source: OIG analysis of USPTO data




                                                            
31
     Within the agency and in its reports, USPTO refers to patent application approval rates as “allowance rates.”


FINAL REPORT NO. OIG-14-024-A                                                                                                                          25
  U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


Appendix C: Glossary of Terminology 

After-final Amendment — After-final amendments are amendments filed by applicants after
the examiner has issued a final rejection. Examiners may choose to approve applications
following after-final amendments; however, they are not required to provide new
determinations in response to after-final amendments if the amendment is not entered by the
examiner. Once a final rejection that is not premature has been entered in an application, there
is no right to unrestricted further prosecution.

After-Final Consideration Program 2.0 (AFCP 2.0) — AFCP 2.0 is a pilot program that
is focused on obtaining agreement through after-final amendments. Applicants who opt into the
program meet with the examiner with the hope that all disagreements between the examiner
and applicant can be resolved through the after-final amendment process rather than through
RCEs.

Art Unit — Teams with specific expertise in a particular technology that are housed within
Technology Centers.

Docket — The examiner’s docket lists the patent applications awaiting action.

First Action — The preliminary determination made by the examiner about whether to
approve a patent application. The applicant, to avoid abandonment, must reply to the
determination with or without amendments and request that the examiner reconsider the
determination.

First Action Interview Pilot (FAIP) — FAIP is a pilot program focused on increasing
agreement early in the process by allowing the applicant and examiner to meet before the first
action.

Final Rejection — The final rejection is the process by which the examiner rejects the patent
application. After the examiner issues a final rejection, the applicant may appeal the examiner’s
decision to the Patent Trial and Appeal Board, file a continuation application, file an after-final
amendment, file a divisional application, or file an RCE.

Patent Term Adjustment — A patent term adjustment is a statutory increase in the patent
term that accrues when USPTO delays in taking certain actions within statutorily set time
periods.

Prior Art — Prior art includes published patents and other disclosures in the public domain.

Production Credit — The credit given to an examiner to perform specific actions (e.g., work
on a new application, RCEs, etc.)

Quick Path Information Disclosure Statement (QPIDS) — QPIDS is a pilot program
that allows applicants to disclose prior art that may be relevant to the patent application
without filing an RCE.



26                                                                        FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

Request for Continued Examination (RCE) — Patent applications resubmitted for
consideration after an examiner has finally rejected the inventor’s claims or otherwise closed
prosecution.

Technology Center — The patent examiner corps is organizationally divided into nine
disciplines called Technology Centers.




FINAL REPORT NO. OIG-14-024-A                                                                    27
  U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL


Appendix D: Agency Response 





28                               FINAL REPORT NO. OIG-14-024-A 
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-024-A                           29
  U.S. DEPARTMENT OF COMMERCE                  OFFICE OF INSPECTOR GENERAL




                                10USPTO00174


30                                              FINAL REPORT NO. OIG-14-024-A 
